    March 20, 2002




Testimony
                    Statement
                         of
               Robert J. Lieberman
            Deputy Inspector General
              Department of Defense
                      to the
      Subcommittee on Government Efficiency,
            Financial Management and
           Intergovernmental Relations
       House Government Reform Committee
                        on
          Defense Financial Management




                No. D-2002-069




               Department of Defense
           Office of the Inspector General
 Quality              Integrity        Accountability
Mr. Chairman and Members of the Committee:

       Thank you for the opportunity to provide the views of the Office of
the Inspector General, Department of Defense, on financial management,
which surely ranks as one of the Department's most difficult management
improvement challenges. I would like to begin with a brief recounting of
recent audit results.

Opinions on Financial Statements for FY 2001

      In terms of audit opinions on the reliability of DoD year-end financial
statements, I am unable to report progress for the DoD-wide or major
component funds. As in previous years, we issued an unqualified (clean)
opinion for the Military Retirement Fund's statements. Disclaimers of
opinion were necessary for all other major funds, however, because of
serious deficiencies in the reporting systems and other internal control
problems. A few DoD organizations, whose funds are not large enough to
require separate reporting to OMB, have made progress, but the impact is
primarily symbolic.

       Measuring progress toward compliance with the Chief Financial
Officers Act and related statutes has been extremely difficult, because the
Government has lacked any metrics except audit opinions on year-end
financial statements. I am greatly encouraged by the widespread support
expressed for our concept of applying Year 2000 conversion-type metrics to
the financial system improvement projects. As soon as the ongoing effort to
develop a comprehensive systems architecture has laid the groundwork, we
can begin assessing the progress of each system development or
modification effort that is needed to achieve compliance with the new
Federal Accounting Standards.

Other Recent Audit Results

       Although the annual audit opinions may continue to attract more
attention than most individual audit reports, the DoD progress in addressing
the specific findings and recommendations in those reports will be a critical
factor in how much financial management improvement actually occurs.
                                                                           2


      Now to bring the most important of these financial management audit
findings to your attention. Their variety illustrates the breadth of the DoD
financial management challenge.

             -- We reported in March 2001 that the DoD Financial
Management Improvement Plan, submitted to Congress in January 2001,
was incomplete and did not ensure that the Department would correct
financial system deficiencies and attain an integrated financial management
system structure. In addition, the Plan erroneously indicated that 12 critical
systems were compliant with Federal Financial Management Improvement
Act requirements. The Plan was little more than a compilation of
unvalidated inputs from various organizations. Its $3.7 billion cost estimate
for systems replacement or improvement was clearly understated and
unreliable. (Report D-2001-085)

             -- We reported in May 2001 that the Defense Finance and
Accounting Service needed to be more efficient and aggressive in collecting
debt from large contractors. We identified 148 cases worth $12.6 million
where action was needed. The List of Contractors Indebted to the United
States, which is a tool used by disbursing officers to offset contractor debts,
included numerous invalid debts and other erroneous data that reduced its
usefulness. (Report D-2001-114)

            -- In June 2001, we reported that DoD had successfully adapted
a commercial automated payment system for DoD freight payment purposes.
This enabled the Department to move away from untimely, paper-based,
poorly controlled and labor intensive processes for 1.25 million payments
per year. However, additional measures were warranted to take full
advantage of the system's capabilities and achieve optimum streamlining
without undue risk. (Report D-2001-148)

             -- In August 2001, we reported that the DoD had failed to
develop a standardized cost accounting system for managing the life cycle
costs of weapon systems. DoD reports that various acquisition reform goals
had been met by establishing such a system were wrong. (Report D-2001-
164)

            -- The DoD agreed with Congress in August 1998 to implement
a new policy to decrease the risk of progress payments being charged to the
wrong accounts. We reported in September 2001 that implementation had
                                                                           3


been poorly managed and the new policy was ineffectual. (Report D-2001-
188)

              -- We reported in November 2001 that DoD financial
management systems were not integrated and could not share data without
expensive and inefficient crosswalks. Nevertheless, the Department had
been moving ahead with the Defense Finance and Accounting Service
Corporate Database and other projects with insufficient assurance that a
truly integrated set of systems would result. (Report D-2002-014)

             -- The DoD plans to transition from the existing contractor
payment system, the archaic Mechanization of Contract Administration
Services (MOCAS) system, to the new Defense Procurement Payment
System by FY 2003. To ensure a smooth transition, it is important to close
as many contracts that have been completed, but not closed out, as possible.
In December 2001, we reported that DoD had a six year backlog of contract
closure actions and needed to accelerate the process. In addition, there were
weaknesses in the closure process itself, insufficient resources earmarked for
the task and untimely contractor input. Cumulatively, these problems
increased the risk to an orderly transition. (Report D-2002-027)

              -- From FY 1996 through FY 2001, 382 General Accounting
Office and DoD audit reports addressed a wide range of management control
issues in the DoD Purchase Card Program. The Army and Air Force had
particularly thorough internal audit coverage. Those audit results were
summarized in a December 2001 Inspector General, DoD, report. Auditors
documented numerous instances of misuse of the cards, lack of oversight
and accountability, splitting purchases to avoid oversight, failure to
segregate duties and inadequate training. (Report D-2002-029)

              -- In January 2002, we reported that most DoD components
initially had done little to implement the DoD Financial and Feeder Systems
Compliance Process, which had been inaugurated in January 2001 to apply
the proven management techniques of the Year 2000 conversion program to
financial systems improvement. Progress in mapping the flow of financial
data and compiling an inventory of systems had been disappointingly slow,
despite the fact that such research was supposed to have been done earlier
for a variety of reasons, including identification of security vulnerabilities,
contingency planning, and systems architecture development. However,
DoD management initiatives during FY 2001 and the guidance provided by
                                                                           4


the National Defense Authorization Act for FY 2002 had established the
groundwork for a more successful effort. (Report D-2002-044)

            -- In March 2002, we reported that the two versions of the
Computerized Accounts Payable System, used for Army and Defense
agency payments, lacked effective controls to detect and correct improperly
supported or erroneous payments to contractors. (Report D-2002-056)

             -- Earlier this week, we issued a summary report on 31 DoD
internal audit reports on the DoD Travel Card Program. A wide range of
problems, similar to those in the DoD Purchase Card Program, were
identified. The report recounts the actions taken by the Under Secretary of
Defense (Acquisition, Technology and Logistics) and the Under Secretary of
Defense (Comptroller) between June 2001 and March 2002 to strengthen
both the Travel Card and Purchase Card Programs. (Report D-2002-065)

The full text of our reports is available on-line at www.dodig.osd.mil.

Responding to Congressional Direction

       Section 1008 of the National Defense Authorization Act for FY 2002
directs the Inspector General, DoD, to perform only the minimum audit
procedures required by auditing standards for year-end financial statements
that management acknowledges to be unreliable. The Act also directs us to
redirect any audit resources freed up by that limitation to more useful audits,
especially in the financial systems improvement area.

       We strongly agree with the rationale behind Section 1008. Due to
overall resource constraints, it would be impossible to provide audit support
in the crucial systems improvement area if we were forced to expend
resources on labor intensive efforts to audit the convoluted workarounds and
poorly documented transactions that currently characterize most major DoD
financial statements. We have long advocated focusing primary attention on
the system problems that are at the core of the DoD financial reporting
problems. By rejecting the notion that financial statements compiled by
special efforts, which bypass or override official accounting systems, are
worth their high cost or constitute progress, Section 1008 has reintroduced
an appropriate sense of proportion.
                                                                          5


DoD Financial Management Initiatives

      The initiatives announced by DoD over the past year appear to be
highly compatible with the course mandated by Section 1008. In reports and
testimony over the past several years, including my testimony to you last
May 8, we had expressed concerns that the cost of the Chief Financial
Officers Act compliance effort was unknown, performance measures were
lacking, there was no sense of consistently strong central leadership and
there was no assurance that managers would get more useful financial
information, even if year-end financial statements eventually received
favorable audit opinions. The Department is being responsive to those
concerns.

       We believe that the effort to establish a comprehensive financial
system architecture is a necessary and long overdue step. There are
undeniable risks--development of the architecture could take much longer
than anticipated, the end product might leave numerous unresolved issues,
the cost to implement the architecture might be prohibitively expensive or
the DoD might lack the discipline to make system program managers
conform to the architecture. Nevertheless, the Department has taken a major
step forward by accepting the premise that the financial management
improvement effort needs to be treated as a program, with all of the
management controls that a very large program should have. Those include
a master plan, well defined management accountability, full visibility in the
budget, regular performance reporting and robust audit coverage. We
believe that the DoD is making a good faith effort to create a strong
management structure for the systems improvement effort. We look forward
to assisting with timely and useful audit advice, just as we did during the
Year 2000 conversion.

        Likewise, we welcome the emphasis in the President's Management
Initiatives on controlling erroneous payments. The DoD has worked hard to
improve the efficiency of its disbursement operations; however, this is
another area where the inadequacy of current systems is the core problem.
As the Department pursues the goal of greatly improved financial reporting,
it must also keep focused on the need for better controls in many facets of its
day-to-day finance operations and closely related purchasing activities, such
as the use of government credit cards.
                                                                           6


        During your recent hearings on abuses of DoD credit cards, you have
expressed appropriate concern about the continued risk of fraud and abuse in
that area. I would like to close my statement by assuring you that the DoD
audit and investigative communities are heavily engaged in helping the
Department to reduce its vulnerability to credit card misuse. In addition to
the previously mentioned summary reports on over 400 audits, we recently
completed another major audit on the Purchase Card Program. We plan to
issue a report by March 31. There will be additional audit reports issued
later this year. Moreover, several criminal investigations involving credit
card misuse are in progress, as well as proactive investigative research
efforts intended to identify abuses of credit card privileges. Cooperation
from DoD managers has been exemplary, although everyone agrees that
much more needs to be done to improve local level management controls.
Several recent criminal convictions illustrate that abusers of Government
credit cards take considerable risk. I have attached to this statement a list of
examples of recently closed Defense Criminal Investigative Service cases on
frauds involving the misuse of DoD credit cards.

Again, thank you for soliciting our views on these matters.

Attachment
                  Examples of Defense Criminal Investigative Service
                            Cases on Credit Card Fraud


•   David M. White pled guilty to placing fraudulent charges against 13 Government
    credit cards. He was sentenced in U.S. District Court, Panama City, Florida, to 18
    months incarceration, $262,840 in restitution and other fees and 36 months
    supervised release.

•   John L. Henson, Jr., pled guilty to using a Government credit card to buy a television
    for personal use. He was terminated from DoD employment and sentenced in Federal
    Court in the Eastern District of Texas to a $3,000 fine and $1,400 restitution.

•   Lionel G. Green pled guilty to a one count criminal information charging him with
    theft using a Government credit card. He was sentenced in U.S. District Court,
    Eastern District of Virginia, to 4 months imprisonment, 4 months home detention, 3
    years probation and $61,465 in restitution and other fees.

•   Jerome D. Phillips pled guilty to conspiracy in a fraudulent scheme involving the
    misuse of a purchase card while assigned to the Joint Staff Supply Service. He was
    sentenced in U.S. District Court, Eastern District of Virginia, to serve a jail term of 12
    months and one day, 24 months probation, and restitution and other fees of $120,100.

•   Johnny L. Bailey, formerly assigned to the Joint Staff Supply Service, pled guilty to
    conspiracy to defraud the Government using his official purchase card. He was
    sentenced in U.S. District Court, Eastern District of Virginia, to 2 years probation,
    restitution and other fees of $70,100 and 6 months of electronic monitoring.

•   Tyrone X. Celey, Sr., pled guilty to bribing Joint Staff Supply Service employees to
    make credit card purchases from his office supplies company. He was sentenced in
    U.S. District Court, Eastern District of Virginia, to 27 months of incarceration, 36
    months of supervised release, and $400,200 in restitution and other fees.

•   Former Master Sergeant Bobby Gilchrist, also a figure in the Joint Staff Supply
    Service case, pled guilty to one count of money laundering, bribery and conspiracy.
    He conspired with contractors to defraud the DoD by accepting cash payments for
    making both otherwise legitimate and bogus purchases from them, using his and other
    employees' credit cards. He was sentenced in U.S. District Court, Eastern District of
    Virginia, to 41 months in prison, 3 years of supervised release, and $400,300 in
    restitution and other fees.

•   Carla F. Armstrong pled guilty to six counts of theft and other charges related to
    misuse of her Government credit card. She was sentenced in Federal Court, Southern
    District of Indiana, to 3 years of supervised probation, including 4 months of home
    confinement, and $10,945 in restitution and other fees.
                                                                                            2


•   Tommie Ray Briley pled guilty to stealing Government property by using his official
    credit card to buy hardware items and selling them to a second party for cash. He was
    sentenced in U.S. District Court, Eastern District of Texas, to 3 years probation and
    $26,378 in restitution and other fees.

•   Quintin A. Swann pled guilty to charges related to fraudulent use of his Government
    credit card while employed in the Office of the Assistant Secretary of the Army
    (Financial Management and Comptroller). He was sentenced in U.S. District Court,
    Eastern District of Virginia, to 14 months imprisonment, 3 years of supervised release
    and $90,200 in restitution and other fees.

•   Susan E. Johnson and James E. Johnson, Navy employees, pled guilty to charges
    related to the purchase of a motorcycle and other items for their own use, misusing a
    Government credit card to do so. Susan E. Johnson was sentenced in U.S. District
    Court, Eastern District of Virginia, to 5 years probation and fines totalling $1,025.
    James E. Johnson was sentenced to 6 months home confinement, 3 years probation
    and $13,279 in restitution.


Press releases on indictments, convictions, sentences and civil settlements stemming from
Defense Criminal Investigative Service cases are available at www.dodig.osd.mil. Many
of these cases are joint efforts with other Federal and DoD law enforcement agencies, as
explained in the individual press releases, when applicable.
